HHS/OIG Audit Report:"Review of Outpatient Pharmacy Services Provided by Lawrence and Memorial Hospital for Fiscal
Year 1999," (A-01-01-00507)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Pharmacy Services Provided by Lawrence and Memorial Hospital for Fiscal Year 1999, (A-01-01-00507)"
September 27, 2001
Complete
Text of Report is available in PDF format (573 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether outpatient pharmacy services were billed for and reimbursed in accordance
with Medicare regulations. Our review covered the period October 1, 1998 to September 30, 1999 (FYI999). We reviewed the
medical and billing records for a two strata sample of 112 pharmacy claims totaling $48,825. Our analysis of the 112 pharmacy
claims showed that $9,313 did not meet the Medicare criteria for reimbursement. Specifically, we noted that $1,687 in radiology
related pharmacy charges were not covered and $7,626 in other pharmacy charges were not properly supported by medical records.
Based, in part, on our statistical sample, we estimated that the Hospital billed at least $41,210 in pharmacy charges that
did not meet the Medicare criteria for reimbursement.  We recommended that the Hospital ensure that charges for outpatient
pharmacy services are properly billed, documented, and coded in accordance with Medicare regulations.  We will also
provide the results of our review to Empire Medical Services in Syracuse, New York, the Medicare FI, so that it can apply
the appropriate adjustment of $41,210 to the Hospital's FY 1999 Medicare cost report.